DOE/IG-480




  INSPECTION                            INSPECTION OF
    REPORT                       GAIN SHARING OPPORTUNITIES
                                           FOR THE
                                   DEPARTMENT OF ENERGY




                                       SEPTEMBER 2000
  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
     OFFICE OF INSPECTIONS
         MEMORANDUM FOR THE SE
                              U.S. DEPARTMENT OF ENERGY
                                    Washington, DC 20585

                                         September 1, 2000



MEMORANDUM FOR THE SECRETARY


FROM:          Gregory H. Friedman /s/ for Herbert Richardson
               Inspector General

SUBJECT:       INFORMATION: Report on “Inspection of Gain Sharing Opportunities for the
               Department of Energy”

BACKGROUND

In 1995, the General Services Administration provided guidance on a program known as “GAIN
SHARING” where agencies could give cash awards to employees who participate in programs to
save travel dollars. This guidance discussed the authority to offer cash awards to employees for
obtaining a free coach class ticket with Frequent Flyer benefits earned on official travel and for
incurring lodging expenses at a daily rate less than the maximum lodging rate.

This inspection was initiated to determine if the Department of Energy (DOE) had developed any
initiatives to implement General Services Administration guidance on “GAIN SHARING.”

RESULTS OF INSPECTION

The inspection determined that four DOE offices implemented a form of “GAIN SHARING,”
and in Fiscal Year 1999, saved $58,000. During the field work portion of our inspection, we
were told by an official from DOE’s Office of Financial Policy that the Department had not
issued a Department-wide policy on “GAIN SHARING.” However, on March 27, 2000, the
Chief Financial Officer issued a memorandum to Heads of Departmental Elements authorizing
them to implement an incentive program to encourage employees to participate in “Frequent
Flyer” programs, convert frequent flyer miles into free airline tickets for use in official travel,
and receive a cash award based on the savings achieved through their actions.

In addition, an official from the Office of the Chief Financial Officer said that a memorandum to
Heads of Departmental Elements explaining how “GAIN SHARING” may be applied to rental
cars and lodging is being considered and is expected to be issued in the near future. The official
also said he hopes to have a “GAIN SHARING” policy for management and operating
contractors written in the next six months. If such a Department-wide policy is implemented, the
Department has an opportunity to realize significant cost savings.
The actions taken by the Chief Financial Officer are consistent with our recommendations. We
recommended that the Chief Financial Officer evaluate the existing “GAIN SHARING”
programs within the Department, develop Department-wide “GAIN SHARING” policies and
procedures, and implement a Department-wide “GAIN SHARING” program.

We also recommended that the Chief Financial Officer, in coordination with the Director of
Procurement and Assistance Management, evaluate the feasibility of including the Department
management and operating contractors in a Department-wide “GAIN SHARING” program.

MANAGEMENT REACTION

Management concurred with the recommendations and has initiated, or is in the process of
initiating, appropriate corrective actions.

Attachment
cc:   Deputy Secretary
      Under Secretary for Energy, Science and Environment
      Under Secretary for Nuclear Security/Administrator for Nuclear Security
INSPECTION OF GAIN SHARING OPPORTUNITIES
FOR THE DEPARTMENT OF ENERGY

TABLE OF
CONTENTS


               Overview

               Introduction and Objective…………………………………... 1

               Observations and Conclusions……………………………...     2

               Details of Finding…………………………………………… 4

               Opportunities for Cost Savings
               through “GAIN SHARING”…………………………………... 4

               Authorization of Incentive Awards
               Associated with Travel Programs…………………………... 4

               Executive Agency Establishment
               of “GAIN SHARING” Programs……………………………... 5

               Department of Energy Efforts to Achieve
               Cost Savings for Official Travel……………………………... 6

               Attempts to Establish “GAIN SHARING”
               Within the Department of Energy…………………………...   7

               Efforts to Address “GAIN SHARING” as
               a Department-Wide Issue…………………………………… 9

               Recommendations………………………………………….. 10

               Management Comments…………………………………... 10

               Inspector Comments……………………………………….. 10

               Appendix

               Scope and Methodology…………………………………….. 11
Overview
INTRODUCTION                       In November 1989, the General Services Administration (GSA)
AND OBJECTIVE                      issued Amendment 3 (54 FR 47523, Nov. 1989) to the Federal
                                   Travel Regulation (FTR). Amendment 3 instructed agencies to
                                   avail themselves of cost savings opportunities by encouraging
                                   employees to participate in frequent traveler programs offered by
                                   airlines, hotels, and car rental vendors. Amendment 3 also
                                   authorized agencies to reimburse employees for the cost of
                                   entering a frequent traveler program when the program was
                                   expected to result in savings to the Government. In addition,
                                   Amendment 3 specified that frequent traveler benefits earned in
                                   connection with official travel could only be used for official
                                   travel.

                                   In 1995, GSA provided guidance on a program known as “GAIN
                                   SHARING” where agencies could give cash awards to employees
                                   who participate in programs to save travel dollars. This guidance
                                   discussed the authority to offer cash awards to employees for
                                   obtaining a free coach class ticket with Frequent Flyer benefits
                                   earned on official travel and for incurring lodging expenses at a
                                   daily rate less than the maximum lodging rate.

                                   We noted that during the field work portion of our inspection, the
                                   Department of Energy (DOE) had not issued a Department-wide
                                   policy on “GAIN SHARING.” Consequently, most DOE
                                   employees had not been able to avail themselves of these cost
                                   savings opportunities. The cost of official travel by DOE Federal
                                   employees is significant, totaling $40,341,932 1 in Fiscal Year 1998
                                   and $44,810,844 2 in Fiscal Year 1999. On March 27, 2000,
                                   however, the Chief Financial Officer issued some initial guidance
                                   on “GAIN SHARING.”

                                   For many years, the Office of Inspector General has received
                                   complaints regarding the alleged misuse of Government frequent
                                   flyer miles by Department employees, and the failure of
                                   Department employees to use Government frequent flyer miles to
                                   reduce the cost of Government travel. As a result of Office of
                                   Inspector General reports, some Department employees have been
                                   required to repay the Government the value of airline tickets that
                                   were purchased for personal use with Government frequent flyer


1
  This figure includes $10,617,594 from the Albuquerque Financial Service Center that is travel for all employees
regardless of whether or not they are DOE or non-DOE. The Albuquerque Financial Service Center could not
separate DOE Federal employees travel costs from non-DOE employees.
2
  This figure includes $15,226,991 from the Albuquerque Financial Service Center that is travel for all employees
regardless of whether or not they are DOE or non-DOE. The Albuquerque Financial Service Center could not
separate DOE Federal employees travel costs from non-DOE employees.


Page 1                                                      Inspection of Gain Sharing Opportunities
                                                            For the Department of Energy
                   miles. Department employees have also been encouraged to make
                   more effective use of their Government frequent flyer miles.

                   The OIG initiated another inspection in this area based on a
                   complaint alleging that Richland Operations Office (Richland)
                   employees were accumulating Government frequent flyer miles so
                   that they could use them for personal travel after retirement or after
                   they left the Government. The OIG did not find any evidence that
                   Richland employees were accumulating Government frequent flyer
                   miles so that they could use them after retirement. The OIG then
                   expanded our inspection to include a review of incentive
                   opportunities available to executive agencies for promoting
                   participation in Frequent Traveler programs and reducing the
                   overall cost of travel.

                   The objectives of this inspection, therefore, were to determine if:
                   (1) “GAIN SHARING” has been adopted by other executive
                   agencies; (2) “GAIN SHARING” offers a viable method of
                   encouraging employees to participate in programs to save travel
                   dollars; and (3) the Department of Energy has developed any
                   initiatives to implement GSA guidance on “GAIN SHARING.”

OBSERVATIONS AND   In 1995, executive agencies were informed of the authority to
CONCLUSIONS        establish incentive award programs to assist them in promoting and
                   encouraging employee participation in frequent traveler programs,
                   and in reducing the overall cost of travel. This authority allowed
                   an employee who obtained a free coach class ticket with frequent
                   flyer benefits earned on official Government travel, or personal
                   travel, to be eligible for a cash award based on the amount of the
                   travel cost savings. This authority also allowed an employee to be
                   eligible to receive a cash award for incurring lodging expenses at a
                   daily rate less than the maximum lodging rate at the temporary
                   duty station.

                   Incentive award programs based on this authority, commonly
                   referred to as “GAIN SHARING,” have been established at the
                   General Services Administration, the Department of Justice (DOJ),
                   and the Department of Education. These incentive award
                   programs have provided a viable method of saving travel dollars.

                   During the inspection, the OIG was told by an official from the
                   Office of Financial Policy at DOE Headquarters, that the
                   Department of Energy had not issued any Department-wide
                   guidance on “GAIN SHARING.” An incentive program involving
                   the use of frequent flyer miles was to be discussed at the Field
                   Chief Financial Officers conference in July 1999, but this issue



Page 2                                              Observations and Conclusions
         never made it to the conference agenda. In the past, Department-
         wide guidance only addressed the use of frequent flyer miles to
         obtain no-cost transportation tickets, lodgings, and rental cars. The
         only incentives discussed in the Department-wide guidance were
         the use of business class upgrades and access to executive clubs.
         However, these incentives were not always successful in
         encouraging some employees to make the most effective use of
         their frequent flyer miles.

         Given the current emphasis on reducing the cost of travel
         throughout the Department, the OIG believes that the Department
         needs to carefully consider the potential cost savings opportunities
         offered through a “GAIN SHARING” program. The Department
         currently has four offices, the Chicago Operations Office
         (Chicago), Richland, the Bonneville Power Administration
         (Bonneville), and the Southwestern Power Administration
         (Southwestern) that have implemented a form of “GAIN
         SHARING.” In the draft report, the OIG recommended that the
         Department evaluate these existing programs, develop
         Department-wide “GAIN SHARING” policies and procedures, and
         implement a “GAIN SHARING” program Department-wide.

         On March 27, 2000, the Chief Financial Officer signed a
         memorandum to Heads of Departmental Elements authorizing
         them to implement an incentive program to encourage employees
         to participate in “Frequent Flyer” programs, convert frequent flyer
         miles into free airline tickets for use in official travel, and receive a
         cash award based on the savings achieved through their actions.
         The OIG believes that significant additional cost savings may be
         accomplished if the program is expanded to include lodging and
         rental cars.

         The OIG was advised by an official from the Office of Chief
         Financial Officer that a memorandum to Heads of Departmental
         Elements explaining how “GAIN SHARING” may be applied to
         rental cars and lodging is being considered and is expected to be
         issued in the near future. The official also said he hopes to have a
         “GAIN SHARING” policy for management and operating
         contractors written within the next six months.




Page 3                                     Observations and Conclusions
Details of Finding
OPPORTUNITIES        On October 13, 1994, Public Law 103-355, FEDERAL
FOR COST SAVINGS     ACQUISITION STREAMLINING ACT OF 1994 (FASA), was
THROUGH “GAIN        enacted. Section 6008, COST SAVINGS FOR OFFICIAL
SHARING”             TRAVEL, required the General Services Administration to issue
                     guidelines to ensure that agencies promote, encourage, and
                     facilitate the use of frequent traveler programs offered by airlines,
                     hotels, and car rental vendors by Federal employees who engage in
                     official air travel. The purpose of this requirement was to realize,
                     to the maximum extent practicable, cost savings for official travel.
                     FASA required that, not later than one year after the date of
                     enactment, the Administrator of GSA would report to Congress on
                     efforts to promote the use of frequent traveler programs by Federal
                     employees.

                     The General Services Administration issued its report to Congress
                     on October 13, 1995. GSA surveyed 98 Federal agencies and
                     reported that 40 agencies said they had agency procedures that
                     instructed and encouraged their employees to utilize frequent
                     traveler benefits. GSA reported that, of the 40 agencies indicating
                     that they had frequent traveler policies and procedures, only five
                     indicated that they had incentive programs in place or proposed for
                     Fiscal Year 1996.

AUTHORIZATION OF     On October 24, 1995, the General Services Administration
INCENTIVE AWARDS     published GSA Bulletin Federal Travel Regulation 17. This
ASSOCIATED WITH      bulletin informed agencies of methods available for use in
TRAVEL PROGRAMS      complying with the requirements of Section 6008 to promote,
                     encourage, and facilitate Federal employee use of airline, hotel,
                     and car rental vendor frequent traveler programs for the purpose of
                     maximizing cost savings while on official travel. This bulletin
                     stated that GSA was issuing the guidelines contained in the bulletin
                     to inform agencies of authority to establish incentive award
                     programs to assist in promoting and encouraging employee
                     participation in frequent traveler programs. Section 3, Cash
                     incentive programs, of this bulletin states that the Government
                     Employees Incentive Awards Act of September 1, 1954 (5 U.S.C.
                     4501-4507), authorizes an agency to pay a cash award to an
                     employee who by his/her personal effort contributes to the
                     efficiency or economy of Government operations. Section 3 also
                     stated that the Office of Personnel Management has implemented
                     the regulations and instructions under which agency awards
                     programs are carried out 5 CFR part 451.




Page 4                                                               Details of Finding
EXECUTIVE AGENCY        The OIG was told by a GSA official from the Relocation
ESTABLISHMENT OF        Management and Travel Policy Branch Central Office that the
“GAIN SHARING”          General Services Administration, the Department of Justice, and
PROGRAMS                the Department of Education have established “GAIN SHARING”
                        programs.

The General Services    In December 1994, the General Services Administration
Administration          distributed guidance concerning cash awards for travel savings.
                        This guidance, titled “POLICY AND PROCEDURES FOR
                        TRAVEL SAVINGS AWARD,” stated that employees who
                        obtained a free coach class ticket with frequent flyer benefits
                        earned on official Government travel, or personal travel, were
                        eligible for the travel savings award. Savings would be measured
                        against the contract rate in effect at the time of the flight. If there
                        was no contract rate, then the lowest available nonrestricted coach
                        fare was used as the basis for measurement. This guidance also
                        stated that employees who participated in the program could
                        receive cash awards for incurring lodging expenses at a daily rate
                        which was less than the maximum lodging rate for the Temporary
                        Duty station.

                        The OIG was also told by the GSA official that in 1995, GSA
                        began the “GAIN SHARING” effort under the Government
                        Employees Incentive Act to give federal employees the
                        opportunity to not only save the Government money where
                        possible, but to actually receive a share of the savings as a reward
                        for their efforts. Since the beginning of their program, 774 GSA
                        employees have saved $637,994 in travel expenses, and in the
                        process, have received cash awards totaling $318,997.

Department of Justice   On April 5, 1995, the Attorney General approved the Department
                        of Justice (DOJ) “EMPLOYEE GAIN SHARING AWARDS
                        PROGRAM,” which established an award program whereby
                        frequent flyers had a “GAIN SHARING” incentive to establish
                        frequent flyer accounts and manage their business versus personal
                        frequent flyer miles. The DOJ program provided for employees
                        (on their own time) to establish the frequent flyer accounts, track
                        business versus personal miles, and plan and secure the frequent
                        flyer miles for official use. Under this program, the potential for a
                        cash award would provide an incentive for employees to ensure
                        that frequent flyer miles were earned and used for official
                        Government travel. Under this program, cash awards were to be
                        granted based on the actual savings generated by the employee,
                        with the Government realizing the savings in travel costs.




Page 5                                                                    Details of Finding
                  The Department of Justice “GAIN SHARING” program became
                  effective at the beginning of Fiscal Year 1996. Since that time,
                  DOJ has saved a total of $484,811, which includes savings of
                  $70,495 in Fiscal Year 1996, $201,947 in Fiscal Year 1997, and
                  $212,369 in Fiscal Year 1998. The Department of Justice
                  anticipates greater savings, with implementation of “GAIN
                  SHARING” by the Immigration and Naturalization Service, the
                  Drug Enforcement Administration, and U.S. Attorney Offices in
                  all districts.

Department of     The Department of Education established a pilot Travel Savings
Education         Shared Benefits Program in May 1995. This program rewards
                  employees who save the agency money while on official
                  temporary duty travel. These savings come from the use of less
                  expensive lodging and/or frequent flyer benefits to purchase airline
                  tickets for official travel. The Department of Education saved
                  $44,743 in Fiscal Year 1996, $46,156 in Fiscal Year 1997, and
                  $39,504 in Fiscal Year 1998.

DEPARTMENT OF     On July 21, 1995, GSA solicited input from the Department of
ENERGY EFFORTS    Energy and other federal agencies on efforts they were taking to
TO ACHIEVE COST   encourage the use of frequent flyer programs. The DOE Office of
SAVINGS FOR       Financial Policy conducted a survey of Departmental
OFFICIAL TRAVEL   implementation efforts and responded to GSA on August 25, 1995.
                  In that response, the Office of Financial Policy stated that DOE
                  had issued Department-wide guidance to DOE Finance Directors,
                  that several DOE sites were operating successful programs, and
                  that more encouragement was needed. DOE sites identified in the
                  DOE response with frequent flyer programs included Oak Ridge,
                  Richland, and Savannah River.

                  In a September 8, 1995, memorandum from the Department’s
                  Controller to the Heads of Departmental Elements, entitled:
                  “Frequent Traveler Savings Initiative,” the Controller stated that
                  the Department was at a point where getting more from its limited
                  travel dollars “has never been more critical. . . .” The Controller
                  urged the Heads of Departmental Elements to review their frequent
                  traveler practices. The Controller stated that frequent traveler
                  programs provide the Department with a unique opportunity to
                  obtain no-cost transportation tickets, lodgings, and rental cars, and
                  that the Department must take full advantage of such programs
                  already in place and establish new programs at sites where there
                  were none. The Controller cited the use of business class upgrades
                  and access to executive clubs as incentives for employee
                  participation.




Page 6                                                            Details of Finding
Richland            A Team Leader from the Financial Management Division,
Operations Office   Richland, told us that they established a program in 1993 to
                    improve the utilization of benefits earned by employees through
                    frequent flyer programs. Richland reported that their program had
                    achieved savings of $50,500 in Fiscal Year 1994, $30,400 in Fiscal
                    Year 1995, and $26,000 in Fiscal Year 1996. However, the
                    savings dropped off substantially in Fiscal Year 1997 to $14,808
                    and in Fiscal Year 1998 to $7,960. According to a Program
                    Management Specialist who monitors the Richland Frequent Flyer
                    Program, the decline in savings from the Richland program was
                    due in part to a lack of incentives for individual employees to make
                    the effort to use frequent flyer miles.

Oak Ridge           Oak Ridge routinely provides information to the traveler on benefit
Operations Office   accumulations, usage restrictions, and redemption processes. The
                    first priority use of frequent flyer miles is for the purchase of
                    airline tickets. Oak Ridge employees are allowed to upgrade to
                    business class (not first class) on international flights (business
                    class is rarely available on domestic flights), and may join
                    executive clubs of various airlines to have access to fax machines,
                    computers, and other amenities while on travel.

Savannah River      Savannah River issued “Traveler’s Tips” on the subject of frequent
Operations Office   flyer programs. Savannah River travelers are automatically
                    enrolled in the programs of the two airlines serving Savannah
                    River and are encouraged to redeem the benefits. The Savannah
                    River program is voluntary and does not directly benefit, or
                    provide incentive to, the traveler.

ATTEMPTS TO         While the Department did not have any Department-wide policy
ESTABLISH “GAIN     or procedures on “GAIN SHARING,” four organizations within
SHARING”            the Department have initiated pilot programs that include “GAIN
                    SHARING” principles.

Chicago             On July 1, 1997, Chicago began a one year test of a “GAIN
Operations Office   SHARING” policy in which Chicago employees could share in
                    any savings resulting from obtaining lodging for less than the
                    maximum allowed amount for the Temporary Duty location and/or
                    from use of frequent flyer miles used to obtain free airline tickets
                    for official travel. After the one year test was completed, Chicago
                    decided to continue the program for an additional year, through
                    June 30, 1999. Chicago has now decided to continue the program
                    indefinitely. Chicago’s “GAIN SHARING” program reported
                    savings of $14,425 for Fiscal Year 1999 and $13,284 for the first
                    quarter of Fiscal Year 2000.




Page 7                                                             Details of Finding
Richland             The OIG was told by a Program Management Specialist who
Operations Office    monitors the Richland Frequent Flyer Program that Richland
                     recently started a pilot program that offers the sharing of cost
                     savings to travelers who use their frequent flyer miles for airline
                     tickets. Richland reported savings of $25,563 for Fiscal Year
                     1999.

Bonneville Power     The OIG was told by an official from Financial Services,
Administration       Bonneville, that on October 1, 1995, Bonneville established a cost
                     savings program which included a mechanism to compensate
                     employees who save funds while on official Government travel.
                     These savings are generated from the use of frequent flyer benefits
                     to purchase airline tickets for official travel. Bonneville employee
                     participation in the program is voluntary. Bonneville reported
                     savings of $19,334 for Fiscal Year 1998 and $8,211 for Fiscal
                     Year 1999.

Southwestern Power   The OIG was told by an official from Financial Systems,
Administration       Southwestern, that a Travel Savings Award Program started as a
                     one year trial in October 1997 and was made permanent for Fiscal
                     Year 1999. These savings come from the use of less expensive
                     lodging for official travel. Effective October 1, 1999,
                     Southwestern also began a Frequent Flyer Airline Savings
                     Program. Southwestern employees are encouraged to participate
                     in “Frequent Flyer” programs, convert the bonus miles into free
                     airline tickets, and receive a cash incentive payment based on the
                     savings achieved through their actions. Southwestern reported
                     savings of $9,718 for Fiscal Year 1999.




Page 8                                                               Details of Finding
EFFORTS TO        While the Department has not addressed Department-wide cash
ADDRESS “GAIN     awards for incurring lodging expenses at a daily rate which was
SHARING” AS A     less than the maximum lodging rate for the Temporary Duty
DEPARTMENT-WIDE   station, efforts were underway within the Department to
ISSUE             establish an incentive program that would encourage employees to
                  obtain free airline tickets through the use of frequent flyer benefits.
                  In May 1999, a draft memorandum, Subject: DEPARTMENT OF
                  ENERGY AIRLINE SAVINGS PROGRAM, prepared by DOE’s
                  Office of Financial Policy, was sent to all Field Chief Financial
                  Officers for comment. The draft memorandum stated that:

                       Effectively immediately, the Department of Energy is
                       implementing an incentive program to encourage
                       employees to participate in ‘Frequent Flyer’
                       programs, convert the bonus miles into free airline
                       tickets, and receive a cash incentive payment based
                       on the savings achieved through their actions.

                  The OIG was told by an official from the Office of Financial
                  Policy at DOE Headquarters, that this issue was to be discussed at
                  the Field Chief Financial Officers conference that was held in July
                  1999. However, the issue of an incentive program involving the
                  use of frequent flyer miles never made it to the conference agenda.
                  Subsequently, in a March 27, 2000, Memorandum to the Heads of
                  Departmental Elements, the Chief Financial Officer issued policy
                  guidance that authorized the Department to implement frequent
                  flyer incentive programs. Because the guidance was limited to the
                  purchase of airline tickets, the OIG believes that cost savings
                  opportunities exist if the program is expanded to include lodging
                  and rental cars. The OIG also believes that application of such
                  incentive programs to management and operating contractors may
                  present significant additional cost savings opportunities, and
                  should be given serious consideration.




Page 9                                                             Details of Finding
RECOMMENDATIONS   We recommend that the Chief Financial Officer:

                  1. Evaluate the existing “GAIN SHARING” programs within the
                     Department for both airline tickets and lodging, develop
                     Department-wide “GAIN SHARING” policies and procedures,
                     and implement a Department-wide “GAIN SHARING”
                     program.

                  We recommend that the Chief Financial Officer, in coordination
                  with the Director of Procurement and Assistance Management:

                  2. Evaluate the feasibility of including the Department
                     management and operating contractors in a Department-wide
                     “GAIN SHARING” program.

MANAGEMENT        In their response to the draft report, the Chief Financial Officer
COMMENTS          concurred with Recommendation 1. On March 27, 2000, the Chief
                  Financial Officer signed a memorandum to Heads of Departmental
                  Elements providing that they may implement an incentive program
                  to encourage employees to participate in “Frequent Flyer”
                  programs, convert frequent flyer miles into free airline tickets for
                  use in official travel, and receive a cash award of 50 percent of
                  savings achieved. The memorandum did not address savings
                  associated with lodging or rental cars. However, the Chief
                  Financial Officer will provide a memorandum to Heads of
                  Departmental Elements to explain how “GAIN SHARING” may
                  be applied to rental cars and lodging.

                  With regard to Recommendation 2, the Chief Financial Officer
                  agreed with the recommendations and stated that since this
                  recommendation has contract implications, it should be issued to
                  the Director, Office of Management and Administration.

                  The Director of Management and Administration concurred with
                  Recommendation 1 and agreed that Recommendation 2 should be
                  addressed to the “Chief Financial Officer in coordination with
                  Director of Procurement and Assistance Management.” In
                  addition, an official from the Office of the Chief Financial Officer
                  said that he hopes to have a “GAIN SHARING” policy for
                  management and operating contractors written in the next six
                  months.

INSPECTOR         The actions planned and taken by the Chief Financial Officer and
COMMENTS          the Director of Management and Administration were responsive
                  to the recommendations.




Page 10                                       Recommendations and Comments
Appendix
SCOPE AND     During our initial inspection of allegations that Richland
METHODOLOGY   employees were accumulating Government Frequent Flyer miles
              for personal use, we interviewed Richland Operations Office
              officials and collected documentation relevant to Richland’s
              Frequent Flyer program. This inspection was then expanded to
              include a review of incentive opportunities available to executive
              agencies for the reduction of their overall travel costs. In
              reviewing these incentive opportunities, we interviewed
              Department of Energy Headquarters personnel involved with the
              DOE Frequent Flyer Program, Operations Office personnel, and
              officials from GSA and DOJ concerning their “GAIN SHARING”
              Programs. In reviewing the incentive opportunities, we evaluated:

              1. The provisions of the Federal Travel Regulation, GSA Bulletin
                 FTR 17, and the Government Employees Incentive Awards Act
                 of 1954.

              2. The Department of Energy guidance on Frequent Traveler
                 Savings Initiatives.

              3. Applicable policies, procedures and guidelines relevant to
                 Operations Office Frequent Flyer and “GAIN SHARING”
                 programs.

              4. Documentation relating to the implementation of the
                 Operations Office Frequent Flyer and “GAIN SHARING”
                 programs.

              5. The “GAIN SHARING” policies and procedures of GSA and
                 DOJ.

              6. The “GAIN SHARING” savings of GSA, DOJ, the Department
                 of Education, the Chicago and Richland Operation Offices, and
                 the Bonneville and Southwestern Power Administrations.

              This inspection was conducted in accordance with “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 11                                             Scope and Methodology
                                                                    IG Report No. DOE/IG-0480

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we nay
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
